               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




      Postal Career Executive Service I
               Annual Leave

               Management Advisory




                                              July 12, 2013

Report Number HR-MA-13-003
                                                                         July 12, 2013

                                                 Postal Career Executive Service I
                                                                   Annual Leave

                                                      Report Number HR-MA-13-003



BACKGROUND:
The U.S. Postal Service established the    Service appropriately adjusted leave
Postal Career Executive Service in 1979    balances in accordance with policy. We
to fill key leadership and management      also found that Postal Service policy on
positions. Postal Career Executive         executive annual leave use was not
Service I employees include area,          clear and an opportunity exists to
district, and headquarters executives,     improve controls. Specifically, the policy
but excludes officers and vice             does not clearly define how various
presidents.                                ways of using annual leave satisfy the
                                           requirement to use 80 hours annually.
The Postal Service provides 208 hours      Additionally, management did not apply
of annual leave each year to executives    leave rules to Postal Inspection Service
for personal or emergency purposes.        employees and relied on a manual leave
These employees can accumulate             system that is susceptible to fraud and
unused annual leave; however, Postal       misuse. When policies are not clear and
Service policy requires executives to      weak internal controls exist, there is
use or lose 80 hours of leave each year    increased financial risk to the Postal
once they accumulate a set number of       Service.
hours. Executives may request leave by
completing and obtaining approval using    WHAT THE OIG RECOMMENDED:
a manual leave request process. The        We recommended management clarify
Postal Service also offers programs to     the policy on annual leave use, improve
exchange leave for cash or donate          system controls to accurately adjust
leave to employees in need.                leave balances for Postal Inspection
                                           Service employees, and conduct a
Our objective was to review compliance     cost/benefit analysis to determine
with and adequacy of Postal Career         whether the Postal Service should
Executive Service I annual leave           automate the leave request and
policies and procedures.                   notification system for executives.

WHAT THE OIG FOUND:                        Link to review the entire report
At the end of leave year 2012, the
Postal Service had 589 Postal Career
Executive Service I active employees,
21 of whom had not taken at least
80 hours of annual leave, as required.
We found that, except for a U.S. Postal
Inspection Service executive, the Postal
July 12, 2013

MEMORANDUM FOR:            DOUGLAS A. TULINO
                           VICE PRESIDENT, LABOR RELATIONS

                           TIMOTHY F. O'REILLY
                           VICE PRESIDENT, CONTROLLER




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Management Advisory – Postal Career Executive
                           Service I Annual Leave
                           (Report Number HR-MA-13-003)

This report represents the results of our review of Postal Career Executive Service I
Annual Leave (Project Number 13YG013HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director, Human
Resources and Support, or me at 703-248-2100.

Attachment

cc: Joseph Corbett
    Jeffrey C. Williamson
    Rosemarie Fernandez
    Corporate Audit and Response Management
Postal Career Executive Service I Annual Leave Use                                                                HR-MA-13-003




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Annual Leave Policy ........................................................................................................ 1

Leave Policy Application ................................................................................................. 3

Manual Leave Request Process ..................................................................................... 4

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Management's Comments .......................................................................... 9
Postal Career Executive Service I Annual Leave                                                          HR-MA-13-003




Introduction

This report presents the results of our review of Postal Career Executive Service
(PCES) I Annual Leave (Project Number 13YG013HR000). This self-initiated review
addresses financial risk. Our objective was to review compliance with and adequacy of
PCES I annual leave policies and procedures. See Appendix A for additional
information about this review.

The U.S. Postal Service established PCES in 1979 to fill key leadership and
management positions. PCES I employees include area, district, and headquarters
executives, but excludes officers and vice presidents. The Postal Service provides
208 hours of annual leave each year to executives for personal or emergency purposes.
These employees can accumulate unused annual leave; however, Postal Service policy
requires executives to use or lose 80 hours of leave each year once they accumulate a
certain number of hours. Executives obtain leave using a manual leave request and
approval process. The Postal Service also offers programs allowing the exchange of
leave for cash or donation of leave to employees in need.

Conclusion

At the end of leave year 2012, the Postal Service had 589 PCES I active employees,
21 of whom had not taken at least 80 hours of annual leave, as required. The Postal
Service’s policy on executive annual leave use is not clear and an opportunity exists to
improve controls. Specifically, the policy does not clearly define how various ways of
using annual leave satisfy the requirement to use 80 hours annually. Additionally,
management does not apply leave rules to U.S. Postal Inspection Service PCES I
equivalent employees. Further, management relies on a manual leave system that is
susceptible to fraud and misuse. When policies are not clear and weak internal controls
exist, there is increased financial risk to the Postal Service.

Annual Leave Policy

The Postal Service's annual leave policy for PCES I employees1 does not clearly state
how various ways of using annual leave satisfy the requirement to ‘use’ 80 hours of
annual leave during the leave year.2

According to the annual leave policy, PCES I employees must use or lose 80 hours of
annual leave each year once they accumulate a certain number of hours.3 However, the
policy does not address whether or not exchanged and donated leave meet the ‘use’
requirement.


1
  Handbook EL-380, Postal Career Executive Service.
2
  The year beginning with the first day of the first complete pay period in a calendar year and ending on the day
before the first day of the first complete pay period in the following calendar year.
3
  Handbook EL-380, Section 621.3, pages 15-16.

                                                           1
Postal Career Executive Service I Annual Leave                                                      HR-MA-13-003



Employees have an opportunity to exchange up to 128 hours of the annual leave they
will earn during the next leave year for cash through the Annual Leave Exchange (ALE)
program.4 PCES I employees receive an ALE letter during the federal benefits open
enrollment period beginning in November, notifying them of the option to receive cash in
exchange for a portion of the annual leave the Postal Service would advance to them at
the beginning of the leave year. The hours they may exchange for cash are not
considered used and do not take the place of the required 80 hours of leave.5 While this
letter defines ‘use’ for purposes of the 80 hour use or lose requirement, it is not included
in Postal Service policy.

Additionally, employees may share leave with other employees by donating earned
unused annual leave through the Postal Service's annual Leave Sharing Program
(LSP).6 The LSP prohibits donating leave to satisfy the use or lose requirement if the
donor would not be able to use it before the end of the leave year. 7 Similar to
exchanged leave, the policy itself does not mention whether donated leave applies to
the 80 hour use or lose requirement.

One Postal Service official stated that the Postal Service does not consider exchanged
leave as used but it does consider donated leave and official time off as used. We also
interviewed 20 randomly selected PCES I employees, half of whom used8 at least
80 hours of leave and half of whom used less than 80 hours. Only one of the
20 employees interviewed indicated that ‘used’ includes donated leave and time away
from the office, and not exchanged leave that an employee sells back to the agency.
The remaining 19 employees either did not know or incorrectly defined whether they
can use exchanged and/or donated leave to satisfy the 80 hour use or lose requirement.

A Postal Service official stated that there used to be a Communications office that
handled executive policy and when it closed, management did not include exchanged
leave information in the policy due to oversight. The official also stated that donated
leave information was not included in policy because employees infrequently participate
in the LSP. The official agreed that definitions of both exchanged and donated leave
and an explanation of whether or not employees can use these types of leave to satisfy
the 80 hour use or lose requirement could be included in the policy.

There is some confusion among Postal Service employees since policy does not define
what type of leave satisfies the 80 hour use or lose requirement. PCES I and other
employees may perceive the Postal Service as not generating reliable leave data and/or
not determining accurate annual leave balances. Additionally, employees may
unknowingly lose hours because they believe they are using a proper combination of
leave types that meet the 80 hour use or lose requirement.



4
  Handbook EL-380, Section 621.4, page 16.
5
  ALE Letter - PCES Employees, SCR EA2497-1 Attachment B, October 30, 2012.
6
  Management Instruction (MI) EL-510-2003-2, Annual Leave Sharing Program, page 4, October 30, 2003.
7
  MI EL-510-2003-2, page 4.
8
  For the randomly selected PCES I employees, we considered ‘used’ to mean donated and official time off.

                                                        2
Postal Career Executive Service I Annual Leave                                                    HR-MA-13-003



Leave Policy Application

Management did not apply the leave policy rules to Postal Inspection Service PCES I
equivalent employees. Specifically, we reviewed all 589 PCES I employees active at the
end of leave year 2012 and found that management appropriately adjusted annual
leave balances for the 20 PCES I employees who did not use 80 hours of annual leave,
as required. However, they did not adjust the annual leave balance for a Postal
Inspection Service PCES I equivalent employee who did not use 80 hours as required.
As shown in Table 1, we identified three employees who:

     Accumulated at least 688 annual leave hours.
     Earned 208 hours in the leave year.
     Used less than 80 hours.

Employees 1 and 2 both used 64 hours and management adjusted their leave balances,
as required. However, Employee 3, the Postal Inspection Service employee, only used
56 hours of leave and management did not adjust the leave balance.

    Table 1: Carryover Hour Reduction for Postal Inspection Service Employees and
               PCES I Employees With Leave Balances of Over 688 Hours

           Annual Leave Hours                     Employee 1          Employee 2          Employee 3
       Carried Over From Leave
                                                              1,304             1,064              784
       Year 2011
        Year 20For
       Earned   YeYear   Year 20129
                   Leave2011Year                                208               208              208
       2011
       Used                                                      64                64               56
       End-Of-Year Balance                                    1,448             1,208              936
       Hours Lost10                                              16                16                0
       Carried Over To Leave Year
                                                              1,432             1,192              936
       2013
      Source: Postal Service payroll employee master and datakeeper files for leave year 2012.

Management stated this occurred due to oversight. During our review, we did not find a
policy for Postal Inspection Service employees or other guidance indicating that they
should have a different leave policy than other employees. A Postal Service official
stated that there was no separate policy for Postal Inspection Service employees and
those who are PCES I equivalents should be subject to the Postal Service leave policy.
Because of our review, management agreed to correct the leave system to properly
calculate annual leave balances for Postal Inspection Service employees.

Management not consistently applying the leave policy to Postal Inspection Service
employees may negatively affect employee morale. Although this issue has limited

9
  According to Postal Service policy, PCES I employees earn annual leave at the rate of 208 hours per leave year
10
   We only found one Postal Inspection Service PCES I equivalent employee that did not take 80 hours of leave as
required. Employees 1 and 2 only used 64 of the required 80 hours so management adjusted their leave balances by
16 hours each. Employee 3 only used 56 of the required 80 hours but management did not adjust the leave balance.

                                                          3
Postal Career Executive Service I Annual Leave                                                   HR-MA-13-003



financial impact, it may cause additional leave liability in the future and expose the
Postal Service to litigation.

Manual Leave Request Process

The Postal Service has an opportunity to automate its leave request system for PCES I
employees by using the Enterprise Resource Management System (eRMS). Currently,
PCES I employees manually request annual leave using Postal Service (PS) Form
3971, Request for or Notification of Absence. The appropriate official approves the
request by manually signing the form and providing a copy to the employee.11 The
employee or approving official sends the approved form to timekeeping for entry into the
Time and Attendance Collection System (TACS) and the system deducts the leave from
the employee's leave balance.

In contrast, both the U.S. Postal Service Office of Inspector General (OIG) and the
Postal Inspection Service have electronic leave request systems. Employees use the
system for both scheduled and unscheduled leave and can access it from their
respective networks to submit requests. The system automatically forwards request
notifications via email to the employee, the approving official, and the timekeeper. The
approving official electronically approves or denies the request and the system
automatically sends an email notification to the employee, the approving official, and the
timekeeper. An automated system could strengthen controls and provide enhanced
management oversight.

The Postal Service already uses eRMS to record and manage unscheduled leave
requests for bargaining and non-bargaining employees; however, management does
not mandate employees to use this system. The three components of eRMS12 are:

    Interactive Voice Response (IVR) System — a centralized telephone number that
     employees call to submit an unscheduled leave request for a non-job related illness
     or injury, or an unanticipated emergency.

    Leave Request Application — a call center that handles leave request calls not
     successfully handled by the IVR. This application also serves as the designated
     center for teletypewriter calls from deaf and hard of hearing employees.

    Enterprise Leave Request Application (eLRA) — an Internet application developed
     to allow non-bargaining employees to request unscheduled leave over the Internet.

eRMS is also designed to identify these unscheduled absences and provide managers
with attendance information. Employees call in through IVR or the call center or submit
their leave request through eLRA, which sends the request to the approving official via
email. Approving officials can review the information provided by the employee and

11
   Current Executive Administrative Series maximum carryover plus 128 hours, Employee and Labor Relations
Manual (ELM) 34, Section 512.422, page 302.
12
   Enterprise Resource Management System Occupational Health Training Guide, pages 3-4, October 2007.

                                                       4
Postal Career Executive Service I Annual Leave                              HR-MA-13-003



approve or deny the request. The employee's leave history, available leave balance,
and other relevant information are available in the system. Upon approval or denial,
eRMS transfers the information regarding the employee's leave request to the Payroll
and Accounting systems.

A Postal Service official believed there was no interest in automating the leave system
because it would be expensive to maintain for minimal gain. He also believed it
would be impractical to grant computer access to all employees to generate an
electronic PS Form 3971 and the implementation of electronic employee signatures
would be difficult. We believe all PCES I employees have computer access.
Additionally, according to another Postal Service official, eRMS has a dedicated logon
process where the user's Advanced Computing Environment identification limits access
to only their information or the information of those within that user's jurisdiction.

By not automating the leave request and notification system, the Postal Service is at
risk of incurring additional liability due to timekeeping abuse, fraud, and misuse. For
example, the OIG Office of Investigations previously identified cases the Postal Service
may have avoided if an automated system existed to notify employees and supervisors
of leave requests. In one case, a PCES I employee deliberately did not submit approved
PS Forms 3971 to the timekeeper. In another case, a timekeeper was inadvertently not
entering a PCES I employee's leave requests into TACS due to a miscommunication.
As a result, the payroll system did not reduce these employees' annual leave balances
by about 600 hours.

Recommendations

We recommend the vice president, Labor Relations:

1. Clarify the annual leave policy (with examples) to include how various ways of using
   annual leave satisfy the requirement to use 80 hours annually and communicate to
   applicable personnel.

We recommend the vice president, Controller:

2. Modify and test leave system controls to ensure U.S. Postal Inspection Service
   Postal Career Executive Service I equivalent employees' annual leave amounts are
   calculated according to Postal Service policy, and communicate policy to applicable
   personnel.

We recommend the vice president, Labor Relations, and the vice president, Controller:

3. Perform an independent cost/benefit analysis to determine whether the Postal
   Service should automate the leave request and notification system, and take
   appropriate action.




                                                 5
Postal Career Executive Service I Annual Leave                                HR-MA-13-003



Management’s Comments

Management agreed with recommendations 1 and 2 but disagreed with
recommendation 3. Management agreed to clarify the annual leave policy in the PCES
handbook and ensure that Postal Service leave policy is applied correctly to Postal
Inspection Service PCES I equivalent employees by January 2014. However,
management did not agree to perform an analysis to determine whether to automate the
leave request and notification system. They stated that current leave system controls
prevent PCES 1 employees from accessing their own leave information so someone
else must assist in the leave request process and that is not efficient. Further, the cost
of system modifications cannot be justified, as the projected savings are small. See
Appendix B for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

Regarding automating the leave request process for PCES I employees, we believe that
automating the system would reduce the risk of potential misuse. However, we
acknowledge management's concerns regarding the controls and costs associated with
implementing a comprehensive automated leave system. Therefore, we will not pursue
the issue further at this time.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                 6
Postal Career Executive Service I Annual Leave                                  HR-MA-13-003




                                 Appendix A: Additional Information

Background

The Postal Service established the PCES group in 1979 to develop and maintain a
highly motivated, competent group of individuals capable of filling key management
positions and providing the leadership needed for the continued success of the Postal
Service. There are two levels in PCES: Level I employees include district, area, and
headquarters executives; and Level II employees consist of officers, including vice
presidents. Annual leave benefits provided to PCES employees allow them to:

    Earn leave at the rate of 8 hours per pay period, for a total of 208 hours per year.13

    Receive in advance any leave they will earn for the leave year at the beginning of
     that leave year.14

    Accumulate unused annual leave but must use (by actually taking or donating) or
     lose 80 hours once they have accumulated a set amount of annual leave hours.15

    Exchange up to 128 annual leave hours that will be advanced at the beginning of
     the leave year for a lump sum payment via the ALE program.16

    Share leave with other employees by donating earned unused annual leave through
     the LSP.17

The Postal Service provides annual leave for employees to use for personal or
emergency purposes and situations. The intention of annual leave is to increase the
morale and effectiveness of employees.

At the end of leave year 2012, the Postal Service had 589 active PCES I employees,
21 of whom had not taken at least 80 hours of annual leave, as required. Of these
employees, 19 lost a total of 642 hours of annual leave valued at $42,235. One
employee was a Postal Inspection Service employee to whom management did not
apply the leave policy rules (see the Leave Policy Application section of this report). The
other employee did not meet the requirement to use 80 hours of annual leave during the
leave year.

Objective, Scope, and Methodology

The objective of our audit was to review the compliance with and adequacy of PCES I
annual leave policies and procedures.

13
   Handbook EL-380, Section 621.1, page 15.
14
   ELM Issue 34, Section 512.311b, page 297.
15
   Handbook EL-380, Section 621.3, pages 15-16.
16
   Handbook EL-380, Section 621.4, page 16.
17
   MI EL-510-2003-2, page 1.

                                                  7
Postal Career Executive Service I Annual Leave                                  HR-MA-13-003



To accomplish our objective, we:

   Researched Postal Service policy on using, exchanging, and donating annual leave.

   Obtained and analyzed PCES I employee annual leave data for leave year 2012.

   Interviewed Postal Service, OIG, and Postal Inspection Service personnel at Postal
    Service Headquarters, Eagan Accounting Services, OIG Headquarters, and the San
    Francisco Inspection Service Division; and PCES I employees at headquarters,
    area, and district offices.

   Benchmarked with the OIG and the Postal Inspection Service to ascertain the
    existence and capabilities of their automated leave request and notification systems.

   Hosted a blog related to PCES leave usage.

We conducted this review from January through July 2013, in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on May 29, 2013, and included their comments where appropriate.

We assessed the reliability of leave payroll data by judgmentally validating annual leave
hours to payroll calculations and leave request documentation, and interviewing agency
officials knowledgeable of the data. We determined that the data were sufficiently
reliable for the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this
review.




                                                 8
Postal Career Executive Service I Annual Leave                   HR-MA-13-003



                             Appendix B: Management's Comments




                                                 9
Postal Career Executive Service I Annual Leave        HR-MA-13-003




                                                 10
